<html>
<title> - LIBYA: FIVE YEARS AFTER GHADAFI</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]










                    LIBYA: FIVE YEARS AFTER GHADAFI

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                AND THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 30, 2016

                               __________

                           Serial No. 114-238

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-863PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York

                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM KEATING, Massachusetts
DARRELL E. ISSA, California          BRAD SHERMAN, California
PAUL COOK, California                BRIAN HIGGINS, New York
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
REID J. RIBBLE, Wisconsin            ROBIN L. KELLY, Illinois
LEE M. ZELDIN, New York




























                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

Mr. Jonathan Winer, Special Envoy for Libya, Bureau of Near 
  Eastern Affairs, U.S. Department of State......................     3

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Jonathan Winer: Prepared statement...........................     6

                                APPENDIX

Hearing notice...................................................    22
Hearing minutes..................................................    23
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Subcommittee on the 
  Middle East and North Africa: Prepared statement...............    24
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas, and chairman, Subcommittee on Terrorism, 
  Nonproliferation, and Trade: Prepared statement................    27
The Honorable Theodore E. Deutch, a Representative in Congress 
  from the State of Florida: Prepared statement..................    29
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    32
Written responses from Mr. Jonathan Winer to questions submitted 
  for the record by the Honorable Ileana Ros-Lehtinen............    34

 
                    LIBYA: FIVE YEARS AFTER GHADAFI

                              ----------                              


                      WEDNESDAY, NOVEMBER 30, 2016

                     House of Representatives,    

          Subcommittee on the Middle East and North Africa and

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 11:26 a.m., 
in room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the Subcommittee on the Middle East and 
North Africa) presiding.
    Ms. Ros-Lehtinen. The subcommittees will come to order. We 
will start with our opening statements. Our good friends on the 
other side are still caucusing. We have tried to wait as long 
as possible, but when Mr. Meadows said that he was leaving, 
that was it. We said we have got to start, time is of the 
essence. So we will do a little bit of business and hear from 
our witness. Thank you. And then we will wait for our 
colleagues to come back.
    So after recognizing myself, and when they come in, Ranking 
Member Deutch and Ranking Member Keating for 5 minutes each for 
our opening statements, I will recognize other members seeking 
recognition for 1 minute. We will start with that process now. 
We will then hear from our witness and, without objection, the 
witness' prepared statement will be made a part of the record. 
Members may have 5 days to insert statements and questions for 
the record subject to the length limitation in the rules.
    Before beginning my opening statement, I would first like 
to take a moment to acknowledge the other chairman of this 
joint subcommittee hearing, Judge Poe, who could not be with us 
this morning as he continues to undergo treatment for leukemia. 
I know that all of our thoughts and prayers are with Judge Poe 
as he fights this disease, we wish him the best. I have his 
opening statement, without objection, it will be made a part of 
the record now.
    The Chair recognizes herself for 5 minutes.
    December 17 marks the 1-year anniversary of the Libyan 
Political Agreement, making this an opportune time to review 
the administration's policy in Libya. While this administration 
first participated in the intervention in Libya in 2011, many 
of us expressed concern with the administration's lack of 
clearly articulated objectives, a post-intervention plan, and 
even an explanation about how it fit U.S. national security 
interests. Many of our worst fears have come to fruition, as 
more than 5 years after Ghadafi's death, Libya is embroiled in 
a difficult civil war that shows no sign of abatement. If 
anything, it has only gotten worse since the U.N.-brokered 
agreement. Libya is more politically divided than ever, its 
economy is in a free fall, and terrorist groups and criminals 
continue to exploit the power vacuum.
    Multiple governing entities and their allied militias and 
armed forces compete for power while the U.N.-backed unity 
government, known as the Government of National Accord, remains 
unable to provide basic security and basic services to the 
people of Libya. Criminals and terrorist groups, including 
ISIS, al-Qaeda and so many others, take advantage of the chaos, 
securing their own territory and using Libya as a launching pad 
for smuggling, human trafficking, and terror attacks--
endangering Libya's neighbors, such as Egypt and Tunisia. Libya 
is now the main transit point for migrants trying to reach 
Europe, and with little border security or governance, many are 
rightly concerned by the potential of terrorists reaching our 
own shores. While reports say that forces are close to retaking 
Sirte from ISIS, we should not allow this news to disguise the 
sad reality: ISIS' presence in Libya is far from being 
eliminated. ISIS, al-Qaeda, Ansar al-Sharia, the group 
responsible for the 2012 Benghazi attack, as well as others, 
all continue to maintain cells throughout the country.
    In a positive development, I was relieved to see the 
announcement last month that the Organization for the 
Prohibition of Chemical Weapons was able to remove Libya's 
remaining chemical weapons equipment. Another welcome 
development, if accurate, is the reported killing by French air 
strikes of the Algerian jihadist known as the ``one-eyed 
terrorist.'' He is said to have been responsible for organizing 
terrorist attacks in Libya, Algeria and Mali, so many other 
places, and had funneled millions of dollars to al-Qaeda. 
France's air strikes highlight the stakes that many outside 
actors have in Libya. Russia, Egypt, Saudi Arabia, the UAE, and 
others, continue to support Khalifa Haftar, the former Libyan 
National Army general who recently claimed victory in Benghazi 
and who was just in Moscow discussing Russian military 
assistance. Reports indicate that at least four countries have 
Special Forces on the ground in Libya right now, including our 
own, and, in some cases, are assisting forces on both sides of 
Libya's civil war. It is also worth noting that in recent 
months Haftar has seized many of the ports in Libya's oil 
crescent, which is Libya's main source of revenue.
    With additional violence on the horizon, potentially 
between eastern and western forces, Haftar's role must be 
addressed in Libya's political dialogue--a dialogue that should 
come sooner rather than later. Since the unity government took 
up residence in Tripoli in March, it has struggled to provide 
the kind of basic services and security that could engender the 
support that it needs in order to consolidate power. And as 
long as it keeps struggling in the west while its rival 
governing entities and security forces keep operating and 
making gains in the east, any chance that the current peace 
process had at succeeding will continue to be undermined.
    As we approach the 1-year anniversary of the Libyan 
Political Agreement, it is clear that the status quo in Libya 
is unsustainable, and that there must be a new and revitalized 
attempt at reconciling all Libyan stakeholders.
    I look forward to hearing from our witness on exactly how 
the administration is working to help get that peace process 
back on track, the status of our counterterrorism operation 
against ISIS and others, and what kind of changes to our Libya 
policy and assistance we should expect moving forward.
    And I am now pleased to yield to members for their opening 
statements. I will turn to Mr. Chabot of Ohio.
    Mr. Chabot. Thank you, Madam Chair. Thank you for holding 
this important hearing. Despite Libya's obviously geopolitical 
importance, it has really not received the public attention 
that it deserves. President Obama has called his 
administration's failure to adequately plan for a post-Ghadafi 
Libya the worst mistake of his presidency. The word ``mistake'' 
really doesn't begin to capture the situation in Libya, which 
is a catastrophic failure.
    Back in August 2012, I spent the better part of a day and a 
half with Ambassador Stevens in Tripoli. This was about a month 
before he was brutally murdered along with three other brave 
Americans. Of course the administration misled the American 
people at that time by saying that this was caused by some 
video. And we also later learned that Ambassador Stevens and 
his people had sought help and better security and more 
protection, and that they were basically ignored by their 
higher-ups in the State Department.
    Libya's now engulfed in not one but two civil wars, the 
chaos has spread to Mali, and now both countries have become 
safe havens for al-Qaeda and ISIS. When the so-called Arab 
Spring spread to Libya in 2011, we were told a military 
intervention to overthrow Muammar Ghadafi was essential to our 
national security. We were told by the Obama administration 
that we could, in effect, lead from behind, and the costs of 
intervention would largely be borne by our allies. And finally, 
we were told Libya could easily be rebuilt and stabilized 
basically on the cheap. As it turns out, none of these things 
were true and I eagerly await the administration's views on 
these things and many others that we will question them.
    And thank you, again, for holding this hearing.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Chabot.
    Do any members wish to make an opening statement?
    If not, let me introduce our witness. I am pleased to 
welcome Mr. Jonathan Winer who serves as the State Department's 
special envoy for Libya, as well as senior adviser for MEK 
resettlement. Thank you for your work on that. He was 
previously the U.S. Deputy Assistant Secretary of State for 
international law enforcement. We welcome you to our 
subcommittee.
    And for the record, Chairman Poe and I invited DOD 
officials to testify at our hearing, but the Department of 
Defense failed to respond to our invitation. Did not offer a 
witness. So we thank you for being here, sir. And we will turn 
to you for your opening statement, Mr. Winer.

   STATEMENT OF MR. JONATHAN WINER, SPECIAL ENVOY FOR LIBYA, 
    BUREAU OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Winer. You are welcome, Madam Chairman.
    Chairman Ros-Lehtinen----
    Ms. Ros-Lehtinen. If you could put that microphone a little 
bit closer.
    Mr. Winer. Sure. Chairman Ros-Lehtinen, Chairman Poe, 
Ranking Member Deutch, Ranking Member Keating, and 
distinguished members of the committees, I am honored by the 
opportunity to appear before you today to discuss U.S. foreign 
policy on Libya. Thank you.
    During my service as special envoy for Libya, our policy 
has centered on promoting the ability of Libyans to maintain a 
stable, unified, and inclusive government that can both defeat 
ISIL and other terrorist groups, and simultaneously meet the 
security, economic, and humanitarian needs of the Libyan 
people.
    After 42 years of Muammar Ghadafi's erratic rule, and 5 
years since the country cast off his shackles, Libya has made 
some, but not enough progress in reaching these goals. Libya's 
post-Ghadafi institutions have not provided sufficient 
stability and opportunity for the Libyan people; but they have 
made some visible progress against terrorism and they still 
have an opportunity to move forward in securing a more 
functional national transitional government. Libya needs to 
move forward on both goals, neither objective is sustainable 
without the other.
    Since the signing of the Libyan Political Agreement in 
Skhirat, Morocco on December 17, 2015, the Government of 
National Accord, or GNA, led by Prime Minister Fayez al-Sarraj 
has been a steadfast partner of the United States and the 
international community against ISIL.
    A year ago, before the Skhirat Agreement, ISIL was 
expanding its presence in Libya, capturing 90 miles of prime 
Mediterranean coastline around the coastal city of Sirte, a 
stone's throw away from Europe's southern shores. A year later 
the picture looks very different. Now, due to the bravery of 
GNA-aligned Libyan soldiers supported since this summer by the 
skill of U.S. forces, who have conducted more than 450 air 
strikes coordinated with our Libyan partners, ISIL controls 
just a few city blocks in Sirte. And its grasp on even this 
sliver of Libyan territory is tenuous. In Benghazi and in 
Libya's east, ISIL and other terrorist groups in other parts of 
Libya have also been pushed back. In Benghazi and Libya's east, 
this has been due to sustained efforts by equally brave Libyan 
soldiers.
    So we have seen Libyan soldiers in different parts of the 
country and with different political orientations taking on 
terrorism in different parts of Libya and what was a 
substantial presence of ISIL in terms of its control of 
territory in Libya is now all but eliminated. The gains against 
ISIL are real. They could also be reversible if Libyans do not 
come together to participate in the GNA and to help it perform 
its work for the Libyan people, and to unify against the common 
threat to all. This is true today for the transitional GNA, it 
will be true for the next Libyan Government that is formed 
after the country moves ahead with elections sometime next 
year, or in early 2018.
    If Libyans choose to fight each other instead of uniting, 
they risk increasing the probability that ISIL and other 
violent extremists in its mold will be back. Accordingly, we 
are continuing our work seeking to broaden support for a common 
political path forward to build a more capable government and 
to unify and professionalize Libya's armed forces. We see no 
military solution to Libya's political divisions; sustainable 
security solutions require sustainable political solutions.
    We also need to keep working with Libyans on getting oil 
flowing and stabilizing its economy. If Libya can get back to 
producing even 1 million barrels a day out of its previous 1.6 
million barrel-per-day capacity, it could easily provide the 
Libyan people the funds they need for food, health care, 
education, and other basic needs. Sustainable economic success, 
too, requires sustainable political solutions. Continuing 
intensive mediation to ensure the political process moves 
forward will be critical. Libyans will continue to look to the 
U.S. for our help as the GNA moves forward in addressing these 
challenges, and we must be prepared to give it.
    Ms. Chairman, Mr. Chairman, and members of the committee, 
the U.S. Government remains deeply engaged in Libya. We have 
shared national security interests in defeating ISIL. The U.S. 
supports the aspirations of the Libyan people for a united, 
inclusive, and responsive national government capable of 
overcoming the country's significant challenges and political 
divisions.
    Thank you for the opportunity to testify. I look forward to 
answering any questions you may have.
    [The prepared statement of Mr. Winer follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
                              ----------                              

    Mr. Chabot [presiding]. Thank you, Mr. Winer.
    Ms. Ros-Lehtinen had to go out. I am filling in for her at 
this time. So I will recognize myself for 5 minutes.
    Her first question would have been, and I will ask it at 
this time, please describe the various violent Islamist 
extremist and terrorist groups currently operating in Libya. 
Who are they? How many fighters does each group have? What are 
their goals? And anything else that you think would be relevant 
and helpful for this committee to understand.
    Mr. Winer. Sure. There are four major groups that are U.N.-
designated terrorist groups that we pay attention to. It is 
surely not the entire complete list because there are local 
groups with different places in the spectrum of extremism who 
are present in the environment as well who we have to pay 
attention to, and Libyans have to pay attention to. Some of 
them are purely domestic and I would distinguish those from the 
ones that operate in a transnational way.
    But the four groups are: Islamic State. I have seen 
different numbers from the United States Government on how many 
are present. Prior to the Sirte offensive, the range in 
estimates were 3,000 to 6,500; I have seen numbers that many. 
Hundreds of Islamic State fighters have been killed in the 
Sirte fighting. Hundreds. Difficult to get an exact number but 
it is in that range. What are the numbers today? I don't think 
anyone knows. I would suspect they are at the lower end of that 
spectrum but there you would need to get briefings in closed 
session from people who are responsible for making those kinds 
of assessments.
    In addition to Daesh, you have al-Qaeda in the Maghreb, 
which maintains an independent presence. They have been present 
in Benghazi, though at this point they are down to a sliver, a 
tiny sliver of territory in Benghazi. They have been basically 
eliminated there, and it is not clear how much longer they will 
hold the last block or two where they still have a presence. 
There is likely al-Qaeda cells elsewhere in the country.
    There have been a couple of different groups calling 
themselves Ansar al-Sharia. One has been present in Darnah in 
the Far East. Another has been present in the far west of 
Libya, sometimes called Ansar al-Sharia Tunis. They have been 
responsible in significant part for attacks in Tunisia at the 
Bardo Museum and at the Sousse Beach area. So that is a third 
group.
    A fourth group, Al-Mourabitoun, is present to some extent 
in Libya. They were Algerian-based originally, and they move 
around within countries to the west and south of Libya as well.
    Those are the principal four groups. Beyond that, you get 
into constellations of militias with different types of ties. 
Some of whom disagree with and fight other Libyan militias and 
other Libyan military forces and that gets more complicated 
pretty quickly. The situation in Benghazi has been made 
complicated by the presence of some of those groups, along with 
people who are clearly Islamic State and people who are al-
Qaeda in the Maghreb.
    Mr. Chabot. Thank you very much. My next question is this: 
There was a significant amount of criticism of the Bush 
administration for inadequately planning, shall we say, after 
the overthrow of Saddam in Iraq. Even after all that criticism, 
why did this administration fail to perhaps learn from that? 
And I think most people would agree there was a lack of 
planning for the power transition after Ghadafi and the 
situation that we have today. How could that happen and what 
can we learn in the future to avoid that type of thing from 
future administrations, including the current one, or the next 
administration, which will be coming in in about 2 months.
    Mr. Winer. Mr. Chabot, it is an absolutely excellent core 
question and it is a question that deserves a lot of thought. I 
will do the best I can extemporaneously to respond.
    In both Iraq and in Libya, you had dictatorships that had 
been in place for a very long time. When you have 
dictatorships, they tend to live in a bubble and not to have 
good political feedback mechanisms to have institutions 
function in ways other than by the command of the dictator.
    So, in both cases, the institutions that were left 
following the military actions did not function in the absence 
of the authoritarian leader telling everybody what to do. They 
probably did not function tremendously well previously, but 
they certainly functioned very terribly afterward. So I think 
there needs to be a recognition any time one goes after a 
dictator that the societies, that the dictators have led for 
decades, are going to have underdeveloped political 
institutions.
    In the case of Libya, there are technocratic institutions 
that functioned very well under Ghadafi and have functioned 
well since. The National Oil Corporation functioned very well 
to get oil pumped, to keep track of oil, and to handle all 
elements of Libyan oil production. Central Bank, technically, 
is capable of functioning to move money for salaries, to be 
able to follow budgets and make payments in that way similarly, 
and to operate as other central banks do. The National 
Telecommunications and Postal Service, same kind of technical 
capacity.
    But political institutions, not so much. In politics, you 
have different people whose view is: I am the one who should 
decide, not that gentleman or woman over there. And no accepted 
agreed-upon mechanism for power sharing. So there have been 
disagreements pretty much nonstop on how to share power, how to 
deliver services at the local level, how to make the key 
decisions to move ahead. Constant negotiations and efforts to 
get alignment among the different geographies, geographical 
regions, the different tribes, the different cities, as well as 
the different political parties and ideologies. So it has made 
for a very, very difficult transition for Libya, as it did for 
Iraq.
    So I think anytime one is going to engage in trying to 
undertake an intervention in another country, you have to do so 
with a lot of humility, with an appreciation of risk and of 
uncertainty, and with constant review before, while you're 
doing it, and afterward to be able to correct course as you go. 
You also need alignment from neighbors. If you have neighbors 
with different visions on the future engaging in a country, 
different regional players, for example, you can wind up with 
different domestic groups being backed by different regional 
forces, and, thereby, believing that they are going to be 
victorious as a result of having their patron. So it has been 
critical, in the case of Libya, to try and get regional players 
aligned with one another in support of a joint and unified 
solution, that is what we have been working on.
    Mr. Chabot. Thank you. My time has expired.
    The gentleman from California, Mr. Cook, is recognized for 
5 minutes.
    Mr. Cook. Thank you, Mr. Chair. By the way, thank you very 
much for your patience with everything that is going on today. 
I wanted to just get your thoughts on the relationship with 
Egypt and the el-Sisi government. A number of years ago, going 
way back, the relationship between Libya and Egypt was 
strained, to say the least. I know that Egypt is concerned with 
the Sinai and its own economic development, but it would seem 
that Egypt could have a tremendous influence in that region 
there going back to historic times. Do you have any comments or 
thoughts on that?
    Mr. Winer. Sure. Egypt is a tremendously important actor in 
relationship to Libya. It has a long-shared border, a long-
shared history, and Egyptian officials very much want to see a 
stable and secure Libya. The question for the United States as 
we work closely with Egypt--and we work closely with literally 
all of Libya's neighbors across the Mediterranean, as well as 
on land, and with other regional players--is what is going to 
produce stability and security for the long term?
    As I mentioned in my testimony, we are convinced that you 
have to have a viable national government as well as viable 
national security forces working together in a way that is 
sustainable. That means a government that is inclusive--it 
can't just be a government from the east or representing 
Easterners, for example--it has to include people from 
Misurata, people from Tripoli, people from the south.
    The United States and Egypt talk about Libya all the time; 
I have been to Cairo, I don't know how many times in recent 
months, meeting with very senior officials. And to date, we 
have been able to achieve alignments in supporting the Libyan 
Political Agreement, in a series of U.N. Security Council 
resolutions, and even on stopping flows of illicit oil when 
they have happened. We have had cooperation and integration.
    There are differences in perspective in some areas. Egypt 
wants to see a very strong Libyan army, we want to see a strong 
Libyan army too. I think our focus has been on how you get that 
integrated across the whole country in a way that is under 
civilian rule, civilian control, but also maintains the ability 
to do its job properly. We continue to work with them on that.
    Mr. Cook. Thank you. I yield back.
    Mr. Chabot. The gentleman yields back.
    The gentleman from Florida, Mr. DeSantis, didn't I hear 
that you just had an addition to your family?
    Mr. DeSantis. That is right.
    Mr. Chabot. A little girl?
    Mr. DeSantis. It is a little girl. A bundle of joy.
    Mr. Chabot. Congratulations.
    Mr. DeSantis. Oh, no, it is tremendous. Thank you so much.
    You mentioned Ansar al-Sharia, they were widely regarded as 
perpetrating the Benghazi attacks. I know that the 
administration has indicted one individual from that. Has there 
been any other efforts made or actions taken to hold anyone 
else accountable who was involved with those attacks?
    Mr. Winer. The FBI has active engagement in trying to bring 
the perpetrators of those attacks to justice. The Department of 
State and every element of the Obama administration, whenever 
there is an opportunity to try and advance those 
investigations, work away at it. One of the most important 
things to me, as special envoy, when we worked on the formation 
of the Government of National Accord was being able to talk to 
the new members of the presidency council about this case and 
to say how much it matters to us. They said, It matters to us, 
Mr. Winer, at least as much as it matters to you. Libyans loved 
Chris Stevens, they knew Ambassador Stevens very well. The 
other three victims of that attack also require and deserve 
justice. The Libyans raise this issue with me when we are 
talking about other things, they want to see us back in the 
country and they want to see this episode brought to a close 
with justice. I have never heard any Libyan I have talked to 
take a different position. There is an emotional element to 
this that is important to the future of both countries, I thank 
you for raising it.
    Mr. DeSantis. And just judging by your response and 
mentioning the FBI, am I right to assume that the response is 
legal/investigatory rather than kinetic in conjunction with, 
say, the Department of Defense?
    Mr. Winer. The FBI has had the lead on this issue since 
those attacks took place. I personally believe that if we have 
the ability to go after terrorists in Libya, or anywhere, who 
have been involved in the killing of Americans, that we should 
exercise that. In the case of Libya, this administration has 
done so on multiple occasions. We went after and killed ISIL's 
emir, who was located at that time in the eastern half of 
Libya's coastal region. We went after a group of terrorists in 
western Libya, a very, very successful attack that killed a 
number of them. And we should be prepared to do that when it 
meets the objective test of people who are threatening 
Americans or have killed Americans.
    Mr. DeSantis. Well, good. Well, I am glad to hear you say 
that. I think that is true and I think it has been a little 
frustrating with the Benghazi response just simply because we 
had identified a group, and I view that very much as an act of 
war. You know, the law enforcement component I get, but I think 
when that was done in the 1990s that probably wasn't as 
effective. I certainly support the other strike that you had 
mentioned, I think that those were absolutely justified.
    Let me ask you this: Of the folks who are kind of on the 
ground in Libya, the various groups that the U.S. is working 
with, what are they seeking? Are they seeking just to put an 
end to a lot of the turmoil? Do they want a more democratic 
pluralistic society? Do they want a more Islamic-based society 
where you would have a Sharia-type system? What would you say 
are kind of in the mix?
    Mr. Winer. Are you talking about the terrorist groups?
    Mr. DeSantis. No, no. I am talking about just groups that 
we are working with.
    Mr. Winer. Oh, sure.
    Mr. DeSantis. What are their orientations?
    Mr. Winer. First, I think most Libyans want to see a 
stable, prosperous, secure Libya. They want good lives, like 
people want in any other country in the world. So most people 
in the first instance, that is what they want. It is getting 
there that is so hard. Getting the leaders to negotiate with 
one another, compromise with one another to create a unified 
government based on reconciliation that can build trust by 
performing. That is what most Libyans, I believe, want. And the 
many, many, many groups of Libyans, different Libyan leaders I 
talk to, profess to want the same thing. Libyans that we are 
working with on the battle over Sirte did not like and did not 
want to be threatened by a foreign brutal repellent ideology 
and organization that was milking Libyan resources to accrete 
power and to stifle all alternatives. They felt very strongly 
that that needed to be stopped.
    In Benghazi, prior to the Libyan National Army commanded by 
General Haftar coming in, there were assassinations in civil 
society that were really significantly affecting the ability of 
ordinary people to live. The goal is to get the forces that we 
have supported in the west, the forces that General Haftar has 
brought together in the east, and other forces, including those 
being put together in Tripoli now from people who used to work 
for the Libyan Army in the past, together to form an integrated 
military that is non-ideological, that is technocratic, that is 
impartial and neutral, nonpolitical, whose goal is to stabilize 
Libya and make the country safe for people to carry out their 
business and live normal, good lives in safety. A political 
agreement is going to be necessary to further political 
negotiations and discussions within the framework of the 
Skhirat agreement is going to be necessary to get there, we 
believe. And we have been working on that intensively and will 
continue to.
    Mr. DeSantis. So is that more of an Egyptian model, then, 
you are looking forward with how their military has operated 
through the years?
    Mr. Chabot. The gentleman's time has expired. But you can 
go ahead and answer the question.
    Mr. Winer. Yes, sir. I wouldn't call it an Egyptian model. 
It needs to be a Libyan model. Libyans will need to have, we 
believe, a joint defense leadership at the top in some way. 
There can be one person who is in the lead and others as part 
of it, but it is going to need to be joint because it needs to 
knit the country together. You know, Egypt has had a strong, 
strong leadership out of Cairo for thousands of years, for a 
long, long time, out of one city. Long tradition in the 20th 
century of Egyptian military. Libya has a more geographically 
diverse population, and it is going to need to be something 
that brings people together.
    Mr. Chabot. The gentleman's time has expired.
    The gentleman from Florida, Mr. Yoho, is recognized for 5 
minutes.
    Mr. Yoho. Thank you, Mr. Chairman. I appreciate you being 
here, and sorry for the delay. You were talking about the flow 
of oil; the operation of it, the production, and the sale 
operated well under Ghadafi, is that right?
    Mr. Winer. Yes, sir.
    Mr. Yoho. All right. And now it is kind of happenstance? It 
is not working as well?
    Mr. Winer. What has happened, in essence, is the different 
Libyan factions have shut down oil production as a means of 
trying to get their way. You could call it extortion, if you 
wanted to, in some cases but, essentially, they have simply 
turned off the spigots. Libyan oil flows from fields to pipes 
to terminals.
    Mr. Yoho. Right.
    Mr. Winer. So you can shut it off at the terminal, you can 
shut it off at the pipe, you can shut it off at the oil field.
    Mr. Yoho. And then you were talking about we need to have a 
viable national government, an inclusive government. Is that 
possible when you have a tribal mentality, or a country with a 
tribal mentality versus a strong arm of a leader like a Ghadafi 
or a Hussein in Iraq? Is that possible in that kind of a 
country with that kind of mentality?
    Mr. Winer. The aftermath of dictatorship is very hard on 
people almost anywhere it happens. In the case of Libya, 
Libyans need to come together to form a government that 
represents----
    Mr. Yoho. Well, that is what I am asking. Is that possible? 
We have seen this story played out in Afghanistan and Iraq, and 
what I see is America trying to correct a wrong from the no-fly 
zone that we know was a mistake; a terrible mistake, and we 
almost repeated this again in Syria. Here we are entangled in 
another Middle Eastern country with not a quick resolve and I 
just want to see what your thoughts are on how do we get 
through this? And as a unity government, and I know that would 
be the ideal situation, but how feasible is that and how 
realistic is that?
    Mr. Winer. I believe that Libyans don't like people from 
other countries telling them what to do.
    Mr. Yoho. I agree.
    Mr. Winer. And they don't much like other Libyans telling 
them what to do. But they would rather be in the end, working 
things out among other Libyans than having foreigners in 
charge. One of the reasons the Islamic State has been pushed 
out of geographic control so quickly, in the scheme of things, 
is because Libyans, even the extremists in the east who invited 
them into Darnah, started saying: We don't want them telling us 
what to do. We don't want those people out of Iraq or Syria 
telling us what to do. We are going to be extremists, we will 
be local extremists; we don't like other people telling us what 
to do.
    Mr. Yoho. Well, and that brings up another point then. If 
ISIS got a foothold in there because of the no-fly zone, 
because of the failed state, and now that we are trying to side 
with different militias to defeat ISIS, are we not going to 
create the same thing that we did in Afghanistan?
    Mr. Winer. Our goal is not to side with any militia. It is 
to help Libyans get together to form unified forces that are 
professional, impartial, neutral.
    Mr. Yoho. Is that possible though?
    Mr. Winer. Yes, I think it is possible. Sometimes things 
that are hard are still possible.
    Mr. Yoho. I agree.
    Mr. Winer. Just because something is hard does not mean it 
is impossible.
    Mr. Yoho. No, I agree with that.
    Mr. Winer. It was considered to be really hard to create a 
political framework in 2015 to try and bring the country 
together. Ultimately, we were able to work with other 
countries, countries with very different takes and perspectives 
on the Libyan issue throughout the region--Middle Eastern 
region and throughout North Africa--were able to say: Yes, we 
agree, this is the way forward. As well as western European 
countries, the United States, and the P5 and the U.N. Security 
Council. We had an awful lot of Libyans aboard, too. The goal 
now is to try and see if we can continue to get Libyans 
together, to find further solutions to implement that long 
enough to then get a referendum on a constitution and elections 
in place, so that you can have the country then move forward on 
that basis, with unified national institutions. If the country 
winds up breaking up into pieces, it is going to be very bad 
for Libyans and it is not going to be good for anybody else.
    Mr. Yoho. Do you see a strong person that could be elected 
in there that people would unify right now? Or do you see it 
still going through the struggling--somebody trying to vie for 
the power, so that they are the person that can be elected? Or 
are they going to just kind of take the country over through 
force?
    Mr. Winer. We do not believe that any Libyan can bring the 
country together through force. We just don't believe it. We 
look at it and say: Is it possible? Conclude it is not going to 
work. It will bring other Libyans into play against it if 
anyone tries to do that, and our partners and working on Libya, 
international partners, pretty much, conclude the same thing. 
It is going to be a process of getting there; promoting 
alignment, getting people to work with one another, preventing 
the efforts to commandeer resources, that is the ongoing work. 
And it is going to need to continue with some intensity for the 
foreseeable future.
    Mr. Yoho. I appreciate it. Thank you.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    The gentleman from Wisconsin, Mr. Ribble, is recognized for 
5 minutes.
    Mr. Ribble. Good afternoon, I guess.
    Mr. Winer. Yes, sir.
    Mr. Ribble. It is good to have you here. I want to go back 
to the economy, to some of the very early statements you made. 
Because I think ultimately, I couldn't agree more with you when 
you talk about that the citizens want an economy that 
functions, they want families that are safe, they want their 
children to do well. They really want all the same things that 
families around the world want. Can you share with us a little 
bit of your perspective of what the Libyan economy looked like 
under Ghadafi----
    Mr. Winer. Sure.
    Mr. Ribble [continuing]. And what it looks like today? You 
talked a bit about oil, but what are the other economic drivers 
in the country? And then also talk to us about what those 
obstacles are. Are they religious? Is it a Sunni/Shia battle? 
Is it economic? Is it just dispirit----
    Mr. Winer. Yes, sir.
    Mr. Ribble. So just kind of take us through what you see 
the economic----
    Mr. Winer. Thank you for another great question. Ghadafi's 
strength and weakness was building the Libyan economy on oil 
and almost exclusively oil. There is essentially no revenue to 
the government meaningfully other than oil. There are small 
amounts from telecommunications payments, that kind of thing, 
postal payments, some excise taxes but it is basically oil. So 
when the price of oil was high, Libya under Ghadafi socked the 
money away. When the price of oil was lower, it managed.
    In the first days after the revolution, Libya continued to 
pump as much oil as it ever did. They started fighting with one 
another, oil production went down. They then resolved things 
for a while, oil production went up to where it had been pre-
Ghadafi again. So the reason why oil is not being pumped at an 
adequate level is political. It is not technical. It is not due 
to deterioration of the system, though Islamic State did damage 
some infrastructure that needs to be repaired, if they had 
complete political agreement, maybe they could get up to 1.2 or 
1.3 million barrels a day instead of 1.6. They would be in 
excellent shape with that. So it is the failure to reach 
political agreements that is creating the problems. It is this 
pattern of extortion, holdups, people refusing to allow oil to 
be pumped for political reasons. That is what has to stop. It 
is a cancer threatening Libya's future when people shut down 
the oil.
    Then the money from the oil has to be distributed in ways 
that ordinary Libyans throughout the country say: Our city, our 
town, our tribe, our people, our region, are being taken care 
of. Ghadafi was good at that; he wasn't necessarily fair, he 
didn't distribute it in a way that everybody else would have 
distributed it, but there was free education, there was low-
cost health care, low cost utilities. So while there were haves 
and have-nots that were substantial and that played a part in 
the revolution, I believe, he basically had his Ghadafi system 
down. Without him acting as the leader, that system is broken 
down and you have these people shutting down the oil, which he 
never would have permitted. They need to get the oil pumped. 
There is no solution near-term other than getting oil pumped so 
they can generate the revenues they need to then distribute it 
by political agreement. So what we are working on right now, in 
addition to urging Libyans to allow oil to be pumped, and right 
now, there is 440,000 barrels a day that could be pumped from 
the west by a small number of people saying yes----
    Mr. Ribble. Is there an effective telecommunications system 
in the country where citizens can communicate easily through 
the Internet and cell phones?
    Mr. Winer. Yes. It is not as robust as it needs to be 
because there hasn't been investment in it in the last 5 years, 
and Islamic State, at various times, tried cutting the cords, 
as it were, shutting down elements of it, but it still exists. 
It could be stronger and needs to be stronger.
    Mr. Ribble. Because it is important economically for the 
people to communicate.
    Mr. Winer. Yeah. Libya needs to diversify beyond oil, but 
first it needs to turn the oil on, agree on budgets, agree on 
fiscal and monetary policy in light of current conditions, and 
reach further political agreements that would strengthen and 
build confidence among the Libyan people, thus shutting off the 
losses due to the parallel or black market. We are working 
closely with the U.S. Department of Treasury and with Libyans 
in trying to promote their agreement on those issues, as well 
as with IMF and the World Bank.
    Mr. Ribble. One final question. In hindsight, and I 
recognize hindsight is generally 20/20, what should the U.S. 
have done differently, if anything? Did we learn anything 
there?
    Mr. Winer. As I mentioned before, and I will repeat this 
core point, anytime that you go into a country that has been 
run by a dictator, the aftermath could be very complicated 
because that is a particular type of system. Getting to a 
system that is more pluralistic and more representative, which 
is essential for countries to be sustainable. There is a reason 
why dictators fall, eventually their systems rot and they no 
longer meet the needs of their people and they can't maintain 
control. When you do that, you have to go in with humility, 
persistence, and commitment, you have to know a lot, listen a 
lot, be prepared to revise your initial thinking, consult with 
other people, and recognize that it can be a bunch of years.
    I worked on issues in the Americas in the 1990s in the 
Clinton years. My rule of thumb used to be that after a civil 
war or the fall of a dictatorship or anything of that nature, 
and military or security forces becoming discredited, no longer 
being in place, you have to think about a decade for 
rebuilding, not a year or 2 years, but a decade. That is not a 
very perfect rule but it is order of magnitude what I have seen 
now over decades of being in this work. The other line I 
sometimes use is: Don't try to do in Baghdad what you would 
never dare try to do in Baltimore, because you know it wouldn't 
work if you tried to do it in Baltimore. So I use the word 
again, ``humility.'' Governance is hard and the further away 
you are from a society, the harder it is. You can still help by 
being very attuned to a society and consulting and learning but 
it is difficult, painstaking work that takes time.
    Mr. Chabot. The gentleman's time has expired. Thank the 
gentleman.
    We want to thank you, Mr. Winer, for you testimony here 
this morning and now this afternoon. In my Democratic 
colleagues' defense, their absence is not due to a lack of 
interest, but they had leadership elections, which apparently 
went a little longer than they anticipated. So their absence, 
of course, is excused.
    We want to thank everyone for being here. Thank you for 
your testimony. Members will have 5 legislative days to submit 
statements or questions or to extend their remarks. And if 
there is no further business to come before the committee, we 
are adjourned. Thank you very much.
    [Whereupon, at 12:11 p.m., the subcommittees were 
adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   

                                 [all]
</pre></body></html>
